                 AUDIT REPORT


                   Audit of NRC’s Quality Assurance
                      Planning for New Reactors

                  OIG-10-A-02 November 16, 2009




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                          November 16, 2009


MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S QUALITY ASSURANCE PLANNING FOR
                            NEW REACTORS (OIG-10-A-02)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Quality Assurance Planning for New Reactors.

The report presents the results of the subject audit. Agency comments provided during
and subsequent to a September 1, 2009, exit conference have been incorporated, as
appropriate, into this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Sherri Miotla, Team Leader, Nuclear Safety Audit Team, at 415-5914.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee on Reactor
 Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Jr., Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Corporate Management
 and Chief Information Officer, OEDO
Nader L. Mamish, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Officer
Roy P. Zimmerman, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Cheryl A. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                       Audit of NRC’s Quality Assurance Planning for New Reactors



EXECUTIVE SUMMARY

   BACKGROUND

         The Nuclear Regulatory Commission (NRC) regulates the design, siting,
         construction, and operation of nuclear power plants. Title 10 Code of
         Federal Regulations (CFR) Part 52 (Part 52) establishes the process to
         apply for a combined license, which, if approved by the NRC, allows the
         applicant to construct and operate a nuclear power plant. The Office of
         New Reactors (NRO) is responsible for reviewing combined license
         applications.

         Under Part 52, each combined license applicant is required to submit a
         final safety analysis report that describes the facility and presents a safety
         analysis of the facility as a whole. This report must include a description
         of the applicant’s quality assurance (QA) program to be applied to the
         design, fabrication, construction, and testing of the structures, systems,
         and components of the facility. Part 52 references the QA program
         requirements, which are described in Title 10 CFR Part 50, Appendix B
         (Appendix B). Appendix B applies to all activities affecting safety-related
         functions of the facility. NRO staff reviews, which include an evaluation of
         QA, are performed in accordance with NUREG-0800, the standard review
         plan.

         During the application process, applicants often conduct activities
         associated with new nuclear power plant construction, including
         developing processes that will be used during construction, testing, and
         operations; establishing programs for areas such as corrective action,
         security, and training; and procuring materials and parts. The applicant
         must provide oversight of vendor programs if safety-related parts are
         procured. Many nuclear vendors are now foreign-based companies and
         oversight of these foreign-based companies can present new challenges,
         such as overcoming cultural and language barriers.

   PURPOSE

         The audit objective was to determine the extent to which NRC provides
         oversight of applicant and licensee new nuclear power plant QA programs.

   RESULTS IN BRIEF

         The purpose of Appendix B QA programs is to ensure the nuclear power
         plant safety-related systems perform adequately in service. Given that the
         interest to build new nuclear power plants is in its infancy, NRO is
         appropriately focusing on QA as it relates to design and procurement
         activities. The Office of the Inspector General (OIG) has identified areas



                                         i
                                 Audit of NRC’s Quality Assurance Planning for New Reactors



     needing management attention while NRO continues its ongoing QA
     review activities. Specifically,

      Coordination of QA reviews among NRO branches is informal.

           o The coordination among NRO branches of QA reviews during
             the combined license application review process, when it
             occurs, is informal. Sections of the standard review plan specify
             that the responsible technical reviewer will coordinate the
             applicable QA reviews with the NRO’s QA branches. However,
             this coordination is not clearly defined and there is no process in
             place to ensure that it occurs. Consequently, there is no way to
             verify that the QA review coordination has occurred, nor that all
             the QA portions of the standard review plan technical chapters
             have been fully satisfied.

      NRC’s QA oversight does not include a review for accurate
       translations.

           o NRC’s oversight of applicant and licensee QA programs and
             activities does not include a review for accurate document
             translations, and NRC has not fully assessed the impact of
             translated document quality on QA oversight. Consequently,
             NRC and its new nuclear power plant applicants and licensees
             could be relying on inaccurate translations. Furthermore, the
             accuracy of translated documents used for design, construction,
             and operation of new nuclear power plants could be called into
             question.

RECOMMENDATIONS

     This report makes four recommendations to help NRC improve its
     oversight of combined license applicant and licensee QA programs. A
     consolidated list of recommendations appears in Section VI.

AGENCY COMMENTS

     On August 25, 2009, OIG provided a draft report to the Executive Director
     for Operations. OIG held an exit conference with the agency on
     September 1, 2009. During that meeting agency management provided
     informal comments to the draft report. Also, on September 8, 2009, OIG
     held an additional meeting with NRC staff to discuss the agency’s informal
     comments to the draft report.




                                 ii
                             Audit of NRC’s Quality Assurance Planning for New Reactors



On September 24, 2009, OIG provided the agency a final draft report, and
on October 1, 2009, the agency declined to provide any formal comments.
The final report incorporates revisions made, where applicable, as a result
of meetings with NRC staff.




                            iii
             Audit of NRC’s Quality Assurance Planning for New Reactors




[Page intentionally left blank.]




             iv
                                  Audit of NRC’s Quality Assurance Planning for New Reactors



ABBREVIATIONS AND ACRONYMS


       ABWR        Advanced Boiling Water Reactor

       AP1000      Advanced Passive 1000

       Appendix B Title 10 Code of Federal Regulations, Part 50, Appendix B,
                  Quality Assurance Criteria for Nuclear Power Plants and
                  Fuel Reprocessing Plants

       ASME        American Society of Mechanical Engineers

       B&PV        Boiler and Pressure Vessel

       CFR         Code of Federal Regulations

       EPC         Engineering Procurement Construction

       EPR         United States Evolutionary Power Reactor

       ESBWR       Economic Simplified Boiling-Water Reactor

       NRC         Nuclear Regulatory Commission

       NRO         Office of New Reactors

       OIG         Office of the Inspector General

       Part 50     Title 10 Code of Federal Regulations, Part 50, Domestic
                   Licensing of Production and Utilization Facilities

       Part 52     Title 10 Code of Federal Regulations, Part 52, Licenses,
                   Certifications, and Approvals for Nuclear Power Plants

       QA          Quality Assurance

       US-APWR     United States Advanced Pressurized-Water Reactor




                                 v
             Audit of NRC’s Quality Assurance Planning for New Reactors




[Page intentionally left blank.]




             vi
                                                      Audit of NRC’s Quality Assurance Planning for New Reactors



TABLE OF CONTENTS

     EXECUTIVE SUMMARY .................................................................................... i

     ABBREVIATIONS AND ACRONYMS................................................................ v

     I.      BACKGROUND ....................................................................................... 1

     II.     PURPOSE .............................................................................................. 5

     III.    FINDINGS................................................................................................ 6

                  A.      COORDINATION OF QA REVIEWS AMONG NRO BRANCHES
                          IS INFORMAL................................................................................ 6

                  B.      NRC’S QA OVERSIGHT DOES NOT INCLUDE A REVIEW FOR
                          ACCURATE TRANSLATIONS ......................................................... 11

     IV.     CONCLUSION ....................................................................................... 16

     V.      AGENCY COMMENTS .......................................................................... 17

     VI.     CONSOLIDATED LIST OF RECOMMENDATIONS .............................. 18

APPENDIX

     SCOPE AND METHODOLOGY ...................................................................... 19




                                                     vii
             Audit of NRC’s Quality Assurance Planning for New Reactors




[Page intentionally left blank.]




            viii
                                            Audit of NRC’s Quality Assurance Planning for New Reactors



I. BACKGROUND

          The Nuclear Regulatory Commission (NRC) protects the health and safety
          of the public and the environment by regulating the design, siting,
          construction, and operation of nuclear power plants. With a renewed
          interest in nuclear energy in the United States, energy providers have
          submitted applications to NRC for nuclear power plant standard design
          certifications and for the construction and operation of new nuclear power
          plants. NRC reviews applications submitted by prospective licensees and
          issues, as appropriate, standard design certifications, early site permits,
          and combined licenses. As of May 2009, NRC had received 17 license
          applications for 26 new nuclear power plants using 5 different designs. A
          map of the projected new nuclear power plant locations is shown in Figure
          1, below.

          Figure 1: Location of Projected New Nuclear Power Plants




   Source: Information depicted based on NRC public Web site as of July 9, 2009.




          Source: NRC Public Web site.



                                           1
                                                   Audit of NRC’s Quality Assurance Planning for New Reactors



                The Office of New Reactors (NRO) is responsible for reviewing early site
                permit, standard design certification, and combined license applications.
                For fiscal year 2009, the agency budgeted $243.5 million, including 819
                full-time equivalent staff, for all activities associated with reviewing new
                nuclear power plant applications. Among NRO’s activities are quality
                assurance (QA) licensing and inspection, which is primarily performed by
                two QA and vendor branches.

                NRC regulations establish the process for obtaining approval to construct
                and operate new nuclear power plants. All of the 104 operating nuclear
                power plants were licensed under the two-step process described in Title
                10 Code of Federal Regulations (CFR) Part 50, Domestic Licensing of
                Production and Utilization Facilities (Part 50). Under that regulation,
                applicants were first required to submit an application for a construction
                permit for NRC approval. For the second step, the applicant submitted an
                application for an operating license, usually during construction. In an
                effort to improve efficiency and reduce potential regulatory risks during
                licensing of new nuclear power plants, NRC established a one-step
                licensing process under Title 10 CFR Part 52, Licenses, Certifications, and
                Approvals for Nuclear Power Plants (Part 52). Part 52 establishes the
                combined license, which is made up of a construction permit and an
                operating license. Part 52 also describes the rules and procedures for
                issuing standard design certifications for new nuclear power plants, in
                which NRC approves a nuclear power plant design independent of an
                application to construct or operate a plant at a specific site. The 17
                applications for new nuclear power plants under NRC review utilize the
                Part 52, one-step licensing process.

                Under Part 52, each applicant is required to submit a final safety analysis
                report that describes the facility, presents the design bases,1 as well as
                presents a safety analysis of the facility as a whole. The final safety
                analysis report must include a description of the applicant’s QA program to
                be applied to the design, fabrication, construction, and testing of the
                structures, systems, and components of the facility. Part 52 references
                the QA program requirements, which are described in Part 50, Appendix
                B, Quality Assurance Criteria for Nuclear Power Plants and Fuel
                Reprocessing Plants (Appendix B). Appendix B applies to all activities
                affecting safety-related functions of structures, systems, and components
                that prevent or mitigate the consequences of accidents that could cause
                undue risk to the health and safety of the public. QA comprises all
                planned and systematic actions necessary to provide adequate
1
  Design bases means that information which identifies the specific functions to be performed by a
structure, system, or component of a facility, and the specific values or ranges of values chosen for
controlling parameters as reference bounds for design. These values may be (1) restraints derived from
generally accepted "state of the art" practices for achieving functional goals, or (2) requirements derived
from analysis (based on calculation and/or experiments) of the effects of a postulated accident for which a
structure, system, or component must meet its functional goals.


                                                  2
                                                 Audit of NRC’s Quality Assurance Planning for New Reactors



               confidence that a structure, system, or component will perform
               satisfactorily in service. A QA program includes elements such as
               procedures, recordkeeping, inspections, corrective actions, and audits.

               Applicants often conduct activities associated with new nuclear power
               plant construction during the application process. These activities include
               developing processes that will be used during construction, testing, and
               operations; establishing programs for areas such as corrective action,
               security, and training; and procurement of materials and parts for nuclear
               power plant construction. The applicant must provide oversight of vendor
               programs if safety-related parts are procured. Many nuclear vendors are
               now foreign-based companies and oversight of these foreign-based
               companies can present new challenges, such as overcoming cultural and
               language barriers as well as technical standards for parts fabrication.

               Industry Role in QA

               QA of every safety-related component and service used in a nuclear
               power plant, including those provided by vendors and sub-suppliers, is
               ultimately the responsibility of the applicant or the licensee. In practice,
               the applicant or licensee oversees its Engineering Procurement
               Construction (EPC)2 contractor’s QA program; the EPC oversees its
               vendors’ QA programs; the vendors oversee their suppliers’ QA programs;
               the suppliers oversee their sub-suppliers’ QA programs; and so on, as
               shown in Figure 2 below. Ultimately, the applicant or licensee must
               ensure that applicable regulatory requirements, which are necessary to
               assure adequate quality, are included in the documents for procurement of
               material, equipment, and services, whether purchased by the applicant, or
               licensee, or by its vendors or sub-suppliers.




2
 Typically, an EPC is a company, or a consortium of companies, hired by a new nuclear power plant
applicant to manage all, or most, of the new nuclear power plant project, including engineering design,
preparation of construction drawings, procurement of parts and materials, construction management, and
pre-operational testing.


                                                 3
                                     Audit of NRC’s Quality Assurance Planning for New Reactors



                Figure 2: QA Program Oversight Process




Source: OIG analysis and NRC documents.


       NUREG-0800, the Standard Review Plan

       NRO staff conduct reviews that result in a safety evaluation report
       describing the staff’s review, findings, and conclusions. These reviews,
       which include an evaluation of QA, are performed in accordance with
       NUREG-0800, Standard Review Plan for the Review of Safety Analysis
       Reports for Nuclear Power Plants. In all, there are 19 standard review
       plan chapters, which are broken down into sections. The individual
       sections are assigned to an NRO branch to perform the review. For each
       section of the standard review plan, the responsible reviewer from the
       assigned NRO branch writes the corresponding section of the safety
       evaluation report.

       In general, the standard review plan chapters correspond to the final
       safety analysis report chapters in the power plant standard design
       certification and combined license applications. Chapter 1 is the
       introduction and general description of the plant. Chapter 17 pertains to
       QA. Chapters 2 through 16, 18, and 19 guide the review of specific
       technical aspects, components, or systems, and are referred to in this


                                     4
                                                 Audit of NRC’s Quality Assurance Planning for New Reactors



                report as “technical chapters.” The 2 NRO branches—Quality & Vendor
                Branch 1 and Quality & Vendor Branch 2—responsible for the chapter 17
                reviews are referred to in this report as the “QA branches.” The 34 NRO
                branches responsible for reviewing the technical chapters of the
                application are referred to in this report as the “technical branches.”

                Growing Dependency on Foreign Suppliers

                There have been many changes in the nuclear industry since the previous
                generation of nuclear power plants. One of the most significant
                differences is the current prevalence of foreign vendors and suppliers.
                The change in the composition of companies accredited by the American
                Society of Mechanical Engineers (ASME) to supply parts to U.S. nuclear
                plants illustrates this change. As of July 2009, 100 of the 210 existing
                ASME-accredited companies were foreign firms. Moreover, there are
                many components that are available only from foreign companies, such as
                reactor vessels and other critical parts and systems. Under NRC
                regulations, some safety-related components must meet the requirements
                of the ASME Boiler and Pressure Vessel (B&PV) Code. In order to supply
                components that meet the ASME code, an ASME N-type or material
                organization accreditation is required.3 The number of companies
                accredited by ASME as N-type providers or material organizations has
                decreased from more than 600 in 1980 to fewer than 200 in 2007. That
                decline was due almost entirely to the reduction of the number of
                American firms accredited by ASME.

                This necessary reliance by the United States on foreign vendors as a
                significant source for nuclear plant components is likely to have important
                implications for quality in new nuclear plant construction. For example,
                foreign vendors bring new challenges, such as language and cultural
                differences and technical standards that may need adjustments to meet
                code requirements for U.S. reactors. This new global environment makes
                the translation of documents from foreign languages to English an
                essential aspect of the nuclear industry, as NRC and its applicants must
                rely on documents that were originally written in a foreign language.


II.    PURPOSE

                The audit objective was to determine the extent to which NRC provides
                oversight of applicant and licensee new nuclear power plant QA programs.
                The appendix provides information on the audit scope and methodology.

3
 ASME provides many different types of B&PV code certifications for suppliers to nuclear plants and
other industries. N-type accredited firms supply B&PV code-certified components to nuclear power
plants, such as vessels, pumps, valves, and other supports. Material organizations supply the
materials—such as tubes, plates, and fasteners—to be used by N-type accredited firms.


                                                 5
                                         Audit of NRC’s Quality Assurance Planning for New Reactors



III.   FINDINGS

            NRO conducts reviews of applicant QA programs for new nuclear power
            plant design, construction, and operation, as well as reviews of vendor QA
            programs. Given that the interest to build new nuclear power plants is in
            its infancy, NRO is appropriately focusing on QA as it relates to design
            and procurement activities. The Office of the Inspector General (OIG) has
            identified areas needing management attention while NRO continues its
            ongoing QA review activities. Specifically:

            A. Coordination of QA reviews among NRO branches is informal.

            B. NRC’s QA oversight does not include a review for accurate
               translations.


       A. Coordination of QA Reviews Among NRO Branches Is Informal

            The coordination among NRO branches of QA reviews during the license
            application review process, when it occurs, is informal. Sections of NRC’s
            standard review plan—a document to assure the quality and uniformity of
            staff safety reviews—specify that the responsible technical reviewer will
            coordinate the applicable QA reviews with the QA branches. However,
            this coordination is not clearly defined and there is no process in place to
            ensure that it occurs. Consequently, there is no way to verify that the QA
            review coordination has occurred, and therefore that all the QA portions of
            the standard review plan technical chapters have been fully satisfied.

            NUREG-0800, the Standard Review Plan

            The principal purpose of the standard review plan is to assure the quality
            and uniformity of staff safety reviews. It is intended to be a
            comprehensive and integrated document that provides the reviewer with
            guidance that describes methods or approaches that are acceptable for
            meeting NRC requirements. The standard review plan was also designed
            to make information about regulatory matters widely available as well as to
            improve communication among NRC, interested members of the public,
            and the nuclear power industry, in order to increase understanding of
            NRC’s review process.

            The standard review plan was developed from many years of NRC
            experience in establishing and applying safety requirements for various
            nuclear power plant designs. It was first issued in 1975 as a routine tool




                                         6
                                                   Audit of NRC’s Quality Assurance Planning for New Reactors



                for NRC staff to use in evaluating nuclear plant designs. According to an
                Office of Nuclear Reactor Regulation office instruction, the standard
                review plan was established to document:

                   “the integrated result of the hundreds of conscious choices made by
                    the staff and by the nuclear industry in developing design criteria and
                    design requirements for nuclear power plants,” and

                   “the most definitive basis available for specifying the NRC's
                    interpretation of an acceptable level of safety for light-water reactor
                    facilities.”

                Although the standard review plan is guidance as opposed to a regulation,
                it is NRC management’s expectation that it be used by reviewers, and that
                deviations from its use, if any, be based on consultations between
                reviewers and their supervisors.

                QA Review Coordination According to the Standard Review Plan

                Sections of the standard review plan specify that the responsible technical
                reviewer will coordinate the applicable QA reviews with the QA branches.
                This coordination is described in the standard review plan in different
                ways, assigning responsibility for the QA review coordination to different
                entities. For example:

                   Chapter 2, Site Characteristics, specifies that the QA branch reviewers
                    will coordinate the review of geotechnical engineering QA aspects with
                    the staff members responsible for reviewing the stability of slopes.4

                   Chapter 3, Design of Structures, Components, Equipment, and
                    Systems, specifies that the review for QA is coordinated and
                    performed in accordance with the standard review plan chapter 17.5

                   Chapter 5, Reactor Coolant System and Connected Systems, specifies
                    that the responsible technical reviewer for reactor coolant pump
                    flywheels will coordinate with the staff member responsible for
                    performing QA.

                   Chapter 7, Instrumentation and Controls, specifies that parts of the
                    chapter 7 review should be coordinated with the QA branches as part
                    of the QA branches’ primary review responsibility.



4
  This refers to the stability of all natural and man-made earth and rock slopes whose failure could
adversely affect the safety of the nuclear power plant.
5
  Chapter 17 of the standard review plan is titled, “Quality Assurance.”


                                                   7
                             Audit of NRC’s Quality Assurance Planning for New Reactors



QA Review Coordination Among Branches Is Informal

Coordination of QA reviews among the technical reviewers and the QA
branch reviewers, when it occurs, is actually informal communication.
Some individual reviewers informally communicate through phone calls
and e-mail, usually to address a specific issue rather than to coordinate a
QA review. For example, OIG learned that a QA reviewer may ask a
technical reviewer to provide assistance with a technical issue, or to
participate in a QA audit or inspection. Similarly, a technical reviewer may
have a question for the QA branch regarding QA requirements. This
interaction is dependent on the initiative of an individual reviewer.

OIG attempted to obtain evidence of more formal QA review coordination
among NRO branches by reviewing safety evaluation reports associated
with standard design certification applications. The safety evaluation
reports contain sections that correspond to sections in the standard review
plan. The reports are intended to describe the staff’s safety review,
findings, and conclusions. OIG reviewed selected final and draft sections
of various safety evaluation reports and found that none documented any
coordination of QA review. Some of these reports described the use of
QA guidance and regulations, but otherwise did not indicate that any QA
review coordination occurred.




                            8
                              Audit of NRC’s Quality Assurance Planning for New Reactors




Figure 3: Cutaway View of the U.S. EPR Standard Design




        Source: NRC public Web site.

No Definition of or Process for QA Review Coordination

There is no definition of, or process for, the QA review coordination
described in the standard review plan. Specifically, NRO staff members
could not explain what QA review coordination means or how it is
supposed to occur. There is no definition in the standard review plan that
clarifies what is meant by QA review coordination, nor are there any office
instructions explaining the coordination language. NRO staff also could
not identify any system that alerts license application reviewers of the
necessity of QA review coordination.

Moreover, some staff members were either unaware of the QA review
coordination language in the standard review plan, or opted not to follow it
due to a lack of understanding of what it means or what is expected. One
NRO manager pointed out that QA review coordination may be necessary.
However, the manager added that coordination, when it occurs, is more
the exception rather than the rule. Another NRO manager said that there




                              9
                             Audit of NRC’s Quality Assurance Planning for New Reactors



would be no way for the QA branch reviewers to become aware of the
expectation to coordinate with the technical branches unless they read the
entire standard review plan, which the manager said is unreasonable.

QA Review of Technical Chapters Cannot Be Verified

Without a definition of, or process for, QA review coordination, there is no
way to verify that any necessary coordination between branches has
occurred. The QA review coordination described in the standard review
plan cannot be ensured due to the fact that it is not defined in the first
place. Therefore, there is no way to know if all QA aspects of the
standard review plan have been satisfied. This could cause missed
opportunities for component-specific QA reviews. This is important
because the QA program is the primary measure used by the nuclear
industry to provide assurance that errors are found and corrected.

For example, the standard review plan specifies that the responsible
technical reviewer for a certain safety-related system will coordinate with
the staff members responsible for performing QA. The QA review of this
system is important because the component’s failure would have
significant safety consequences, as it could lead to possible damage to
the reactor coolant system, the containment, or the engineered safety
features. The draft safety evaluation report for a standard design
certification application makes no mention of a QA review for this safety-
related system. Because it is unclear what is meant by QA review
coordination, there is no way to verify that all QA portions of the standard
review plan have been met. One reviewer responsible for this safety-
related system stated that QA was not reviewed as part of the evaluation.
Therefore, because NRC has not performed a QA review for this safety-
related system, the agency unnecessarily accepts increased risk that this
system may not be able to perform its safety-related function.

Recommendations:

OIG recommends that the Executive Director for Operations:

1. Clearly define the QA review coordination requirements of the standard
   review plan.

2. Develop a process for reviewers to coordinate QA reviews and a
   method to determine that the QA coordination has occurred.




                            10
                                                 Audit of NRC’s Quality Assurance Planning for New Reactors



       B. NRC’s QA Oversight Does Not Include a Review for Accurate
          Translations

               NRC’s oversight of applicant and licensee QA programs and activities
               does not include a review for accurate document translations. Translation
               service companies and an international translation guide emphasize the
               importance of QA for translations. However, NRC has not fully assessed
               the impact of translated document quality on QA oversight. Consequently,
               NRC and its new nuclear power plant applicants and licensees could be
               relying on inaccurate translations. Furthermore, the accuracy of translated
               documents used for design, construction, and operation of new nuclear
               power plants could be called into question.

               The Importance of QA for Translations

               Translation service companies and an international translation guide
               emphasize the importance of QA for translations. Applying a QA process
               to translations can help ensure that the translation is accurate and meets
               the needs of the requester.

               ASTM International, one of the largest voluntary standards development
               organizations in the world, provides an important new guide for the
               professional translation industry and its clients. The Standard Guide for
               Quality Assurance in Translation defines translation as the “process
               comprising the creation of a written target text based on a source text in
               such a way that the content . . . can be considered to be equivalent.”6 The
               guide notes that translation QA includes writing clear translation
               specifications and adhering to them throughout the process. It provides
               that translation quality is the degree to which the translation fulfills the
               specifications of the customer. The guide also identifies attributes of
               quality language translation services, which include selecting the
               appropriate translator(s), utilizing specific methodologies for editing and
               formatting the translation, and undertaking proofreading and verification
               steps.

               Translation service companies also use QA processes that include
               translation by a professional translator, editing by a native language
               speaker, and proofreading. Additionally, translation service companies
               and translators stated that when translating a highly technical document,
               knowledge of that subject matter is key. Moreover, some translation
               experts contend that translations of foreign language documents into
               English should be produced by translators whose native language is
               English.

6
 Standard Guide for Quality Assurance in Translation, Designation F 2575-06, ASTM International,
approved May 1, 2006, published June 2006.


                                               11
                                                  Audit of NRC’s Quality Assurance Planning for New Reactors



                NRC Does Not Verify QA for Translations

                NRC’s QA oversight for new nuclear power plants does not include
                verifying whether applicants, licensees, and vendors assure the quality of
                translations. This includes documents submitted to NRC as part of an
                application review or inspection activity, as well as documents submitted
                to applicants and licensees from vendors. Individual NRC staff members
                had varying opinions regarding the applicability of Title 10 CFR Part 50,
                Appendix B QA criteria to translations. Most NRC staff members
                interviewed during this audit did not consider the quality of translations to
                be covered by Appendix B, particularly for licensing activities.7 However,
                some staff members and managers acknowledged that there may be
                instances where Appendix B does apply to translation.

                Given the current industry reliance on foreign vendors and sub-suppliers
                for the design and manufacture of safety-related components, such as
                reactor vessels, the accuracy of translated design basis and other
                documentation, such as technical manuals, becomes more relevant for
                applicants/licensees and NRC alike. Indeed, OIG discovered one large
                nuclear vendor with a QA procedure for translation that it uses in-house for
                foreign language document translation. The vendor does not, however,
                apply the same QA procedure to its foreign suppliers, and simply requires
                its suppliers to provide documentation in English, without regard for the
                translation process.

                Like applicants and licensees, NRC relies on translated documents to
                conduct QA oversight activities. During new nuclear power plant licensing
                and inspection,8 NRC staff sometimes need documents to be translated
                from a foreign language into English. For example, NRC staff requested
                that a vendor supplying the digital instrumentation and control system for a
                new nuclear power plant design translate several documents from
                Japanese into English. Also, one NRC QA inspector told OIG that during
                inspections in France and Spain, each vendor translated documentation
                into English for the purposes of the inspections. Furthermore, in
                anticipation of an upcoming NRC inspection of a Japanese vendor working
                for new nuclear power plant applicants, an inspector said that the vendor
                would need to translate all its audits into English.



7
  According to NRC managers, NRC reviews application information in English no matter the source of
that information. Any license granted would be based on the information provided in the English
documentation. Managers stated that if a licensee misrepresented information in an application due to an
erroneous translation of a licensing document, the licensee would have to apply to NRC for a licensing
amendment.
8
  NRC conducts QA oversight through licensing activities, which includes reviewing combined license
applications and certified design applications, as well as inspections of combined license applicants’ and
vendors’ implementation of QA.


                                                 12
                                               Audit of NRC’s Quality Assurance Planning for New Reactors



               In isolated instances, some NRC staff members attempted to verify
               translated documents, but through inadequate means such as comparing
               word and page counts and document formats between the source and the
               translation. One NRC staff member said that NRC document translations
               are reviewed by counting the number of words in the source document
               and the translated document. Another NRC staff member said that the
               accuracy of a document translated from a foreign language and submitted
               to NRC is sometimes verified by comparing the graphics and numbers in
               the source document and the translated document. Comparing the
               similarity of graphics and numbers or counting words in the two versions
               does not assure that the translation accurately reflects the message of the
               source document.

               NRC Has Not Assessed Impact of Translated Document Quality

               NRC has not fully assessed the impact of translated document quality on
               QA oversight. On the whole, NRC has undertaken some efforts to assess
               impacts of the changing nuclear industry on its vendor inspection
               program.9 However, NRC has not assessed how translated documents
               from foreign providers of safety-related systems might impact the quality of
               safety-related components supplied to new nuclear power plant applicants
               and licensees in the United States.

               Many suppliers of designs and major components are based in foreign
               countries where English is not the predominant language. For example,
               as of June 2009, the reactor pressure vessel closure head and three
               complex steam generator parts for the AP1000 standard design could only
               be manufactured by firms in Korea and Japan. NRO managers were not
               aware of any formal activity where NRC analyzed the impact of
               documents translated into English for NRC’s licensing and inspection
               purposes.




9
 See, for example, SECY-07-0105: Enhancement to the Vendor Inspection Program within the Office of
New Reactors.


                                              13
                                            Audit of NRC’s Quality Assurance Planning for New Reactors



              Figure 4: Cutaway View of the AP1000 Pressurized Water
                             Reactor Standard Design




Source: NRC public Web site.

               NRC and Applicants Could Rely on Inaccurate Translations

               NRC and its new nuclear power plant applicants could be relying on
               inaccurate translations and, thus, the accuracy of documents used for
               design, construction, and operation of new nuclear power plants could be
               called into question. Without applying a QA process to document
               translation, there is no way to be certain that a document translated into
               English meets the customer’s requirements. This could result in NRC
               basing licensing decisions on inaccurate documents.

               During the course of licensing and inspections for new nuclear power
               plants, NRC staff members discovered documents written awkwardly in
               English. This could be a result of a faulty translation. For example, one
               NRO technical reviewer described encountering translation problems,
               including broken English. Similarly, an NRO manager described an
               instance where NRC technical staff members were frustrated when
               reviewing a standard design certification application with obvious
               translation problems. Awkwardly written English documents may be an


                                           14
                             Audit of NRC’s Quality Assurance Planning for New Reactors



indicator of a faulty translation, and NRC should continue to identify these
errors to applicants and vendors submitting the translated documents to
NRC. However, an awkwardly written English document is not the only
indicator of poor translation. Word choice in a translated document
reveals nothing about the qualifications of the translator or the efficacy of
the review process, if any, applied to the translation. Therefore, without a
means to ensure quality translations, nuclear power plant applicants and
NRC may be missing instances where documents are written in English
with correct style and grammar, but do not accurately reflect the meaning
of the source document.

Recommendations:

OIG recommends that the Executive Director for Operations:

3. Determine how the quality of translated documents impacts:

      a). NRC and industry ability to assess the quality of foreign-supplied
          safety-related parts and services to new nuclear power plants.

      b). NRC and industry QA oversight, including licensing and
          inspection activities.

4. Incorporate results of the assessments into NRC’s QA oversight
   activities.




                            15
                                      Audit of NRC’s Quality Assurance Planning for New Reactors



IV.   CONCLUSION

          The early stages of new nuclear power plant licensing present an
          opportunity for NRC and industry to improve QA oversight and therefore
          reduce the likelihood of problems during construction and operation. Even
          at this early stage, there are some challenges associated with
          implementation of the regulatory vision articulated in Part 52, as well as
          ongoing changes in the nuclear industry and global supply chain. In the
          spirit of engaging these early challenges at an opportune moment, OIG
          has identified areas needing management attention, such as QA review
          coordination and document translation.




                                     16
                                     Audit of NRC’s Quality Assurance Planning for New Reactors



V.   AGENCY COMMENTS

        On August 25, 2009, OIG provided a draft report to the Executive Director
        for Operations. OIG held an exit conference with the agency on
        September 1, 2009. During that meeting agency management provided
        informal comments to the draft report. Also, on September 8, 2009, OIG
        held an additional meeting with NRC staff to discuss the agency’s informal
        comments to the draft report.

        On September 24, 2009, OIG provided the agency a final draft report, and
        on October 1, 2009, the agency declined to provide any formal comments.
        The final report incorporates revisions made, where applicable, as a result
        of meetings with NRC staff.




                                    17
                                      Audit of NRC’s Quality Assurance Planning for New Reactors



VI.   CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Executive Director for Operations:

          1. Clearly define the QA review coordination requirements of the standard
             review plan.

          2. Develop a process for reviewers to coordinate QA reviews and a
             method to determine that the QA coordination has occurred.

          3. Determine how the quality of translated documents impacts:

             a). NRC and industry ability to assess the quality of foreign-supplied
                 safety-related parts and services to new nuclear power plants.

             b). NRC and industry QA oversight, including licensing and inspection
                 activities.

          4. Incorporate results of the assessments into NRC’s QA oversight
             activities.




                                      18
                                   Audit of NRC’s Quality Assurance Planning for New Reactors


                                                                                   Appendix
SCOPE AND METHODOLOGY

       The audit objective was to determine the extent to which NRC provides
       oversight of applicant and licensee new nuclear power plant QA programs.
       To address the audit objective, OIG observed three NRC QA
       implementation inspections, which include NRC’s review of the applicants’
       oversight of vendors according to certain Title 10 CFR Part 50, Appendix
       B criteria. OIG also reviewed NRC regulations and guidance, and
       interviewed NRC staff members and industry officials. Additionally, OIG
       identified and reviewed QA-related reports, reviewed nuclear and
       translation industry standards, and analyzed NRC QA implementation
       audit and inspection reports. Some of the key documents reviewed
       include:

        NUREG-0800, Standard Review Plan for the Review of Safety
         Analysis Reports for Nuclear Power Plants.

        NUREG-1055, Improving Quality and the Assurance of Quality in the
         Design and Construction of Nuclear Power Plants: A Report to
         Congress.

        Title 10 CFR Part 50, Domestic Licensing of Production and Utilization
         Facilities.

        Title 10 CFR Part 52, Licenses, Certifications, and Approvals for
         Nuclear Power Plants.

        Inspection Manual Chapter 2502, Construction Inspection Program:
         Pre-Combined License (Pre-COL) Phase.

        Inspection Procedure 35017, Quality Assurance Implementation
         Inspection.

        Management Directive 3.12, Handling and Disposition of Foreign
         Documents and Translations.

        Regulatory Guide 1.28, Quality Assurance Program Requirements
         (Design and Construction).

        Regulatory Guide 1.33, Quality Assurance Program Requirements
         (Operation).

        NRC Information Notices.

        Agency Office Instructions.


                                  19
                            Audit of NRC’s Quality Assurance Planning for New Reactors




 QA implementation audit and inspection plans and reports.

 Nuclear industry QA standards and translation industry standards.

 Commissioners’ speeches and NRC press releases.

Auditors conducted interviews with 47 agency and industry employees,
including NRC managers and staff members at headquarters and one
region, members of the nuclear industry, and members of the translation
industry.

OIG conducted this audit at NRC headquarters, one region, and selected
new nuclear power plant applicants’ facilities between December 2008
and July 2009 in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Major contributors to this report were Sherri Miotla, Team Leader;
R.K. Wild, Audit Manager; Kevin Nietmann, Technical Advisor;
Michael Zeitler, Senior Management Analyst; Rebecca Ryan,
Management Analyst; and Vidya Sathyamoorthy, Student Management
Analyst.




                           20
